                                                                                          Ofjce of Inspector Geneinl

                                                                                          U.S. Department of Homela~itlSecurity
                                                                                          300 Frank H. Ogawa Plaza, Suite 274
                                                                                          Oakland, California 94612


                                                                                         Homeland 

                                                                                         Security
                                                       April 24, 2006


MEMORANDUM FOR: 	                     John E. Pennington
                                      Regional Director 

                                      FEMA Renion X 


FROM:
                                      Director, @i+ants
                                                     Program Management Audit Division

SUBJECT: 	                            Audit of the State of Washington's Department of Corrections
                                      Olympia, Washington
                                      Public Assistance IdentiJication Number 000-UTLYX-00
                                      FEMA Disaster Number 1361-DR- WA
                                      Audit Report Number DS-04-06

We audited public assistance grant funds awarded to the State of Washington's Department of
Corrections, Olympia, Washington (DOC). The objective of the audit was to determine whether the
DOC expended and accounted for Federal Emergency Management Agency (FEMA) funds
according to federal regulations and FEMA guidelines. In addition to questioning costs incurred,
this report discusses FEMA's need to develop guidance for identifying and evaluating the eligibility
of disaster repairs and the funding of related costs that could have been mitigated if a subgrantee
adequately maintained or repaired its facilities prior to a disaster.

DOC received an award of $2.0 million from the State of Washington Emergency Management
Division (EMD), a FEMA grantee, for emergency protective measures and permanent repairs to
state prison facilities damaged as a result of the Nisqually earthquake. The incident period was from
February 28,2001, to March 16,2001. The award provided 75 percent FEMA funding for 2 large
projects and 25 small projects.' The audit covered the period from February 28,2001, to
October 31, 2003, and included a review of the two large projects at the Washington State
Penitentiary (WSP) in Walla Walla, Washington. As of October 31, 2003, DOC claimed
$1.9 million and FEMA obligated $1.8 million for these two projects (see Exhibit A).

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, EMD, and DOC records, and other auditing
procedures considered necessary under the circumstances.


' Federal regulations in effect at the time of the disaster set the large project threshold at $50,600.
                                            RESULTS OF AUDIT 


DOC generally expended and accounted for public assistance funds according to federal regulations
and FEMA guidelines. However, as noted in Finding A, the audit identified that federal regulations
and FEMA guidelines for determining project eligibility do not include guidance to differentiate
disaster damage from damage attributable to the lack of maintenance to a damaged facility. In
                                                                  7
addition, DOC claimed $2,122 in ineligible costs (FEMA s share - $1,592).

Finding A - Lack of Maintenance Not Considered in Project Eligibilitv

DOC claimed $1,798,760 on Project Worksheet (PW) 1558 for the replacement of two walls of the
Education Building at WSP Walla Walla (facility). In reviewing project files, we identified
documents showing that for years prior to the disaster, DOC officials were aware that the facility had
serious structural deficiencies and that they took action to monitor the structural damage. However,
DOC did not initiate any major repairs to the facility. In addition, FEMA and EMD records on the
project did not include evidence showing that the facility's pre-disaster conditions and lack of
maintenance was considered in determining project (damage) eligibility. We attributed this lack of
consideration to the fact that FEMA regulations, policies, and guidelines do not sufficiently address
the eligibility of disaster repairs that could have been mitigated if a subgrantee adequately
maintained or repaired its facilities prior to a disaster.

Following are highlights of key events relevant to the project:

        November 30, 1999: WSP Master Plan Facilities Assessment identified unstable conditions
        in the Education Building, including (I) cracks at the center core of the roof, (2) consistent
        sagging between beams on floors that would not accommodate additional loads necessary to
        make the floors serviceable, (3) several cracks (possible hydro-consolidation) at various
        locations on un-reinforced masonry walls, some of which were being monitored with
        measuring devices, and (4) an unreliable lateral shear system due to poor conditions of the
        un-reinforced masonry walls.'

        February 28,2001: A 6.8 magnitude earthquake struck Western Washington with the
        epicenter located near Olympia, the State capital. Walla Walla is located about 300 miles
        from the earthquake's epicenter.

        April 16,2001: DOC requested emergency funding from the State's General Services
        Department to shore the Education Building walls.

        April 16,2001 (Effective Date): The FEMA-State Agreement was amended to include
        Walla Walla County for Public Assistance Program funding.


 While over 100 years old, the Education Building was the only un-reinforced masonry structure at WSP Walla Walla to
sustain earthquake damage. Further, there were no other public assistance subgrantees in Walla Walla County.

                                                         2

       October 10, 2001: Architectural engineers under contract with DOC noted that the Education
       Building had gone through many renovations over the years, including demolition of walls,
       new wall construction, and infilling of openings that re-distributed forces and added
       additional stresses to the walls.

       February 5,2002: FEMA initially obligated $1,626,906 on PW 1558 for portions of the
       Education Building's south and east walls, their foundations, and associated necessary work.
       The PW was subsequently increased by $54,475 for a total obligated funding of $1,681,381.

       Auwst 2002: Construction work on the primary contract began and was completed on
       February 25,2003.

According to 44 CFR 5 206.223(a), to be eligible under the Public Assistance Program, work must
be required as the result of the major disaster event. In addition, FEMA's Public Assistance Guide
(FEMA 322), Page 23 states "Damage that results from a cause other than the designated event, or
from pre-disaster damage, is not eligible." Lastly, 44 CFR 5 206.223(e) states, "No assistance will
be provided to an applicant for damages caused by its own negligence." It is clear from project
documentation that some damage occurred as a result of the earthquake and that some damage was
pre-existing. However, we could find no criteria that require FEMA inspectors to consider the
eligibility of disaster repairs and costs that could have been mitigated if a subgrantee adequately
maintained or repaired its facilities prior to a disaster.

DOC stated that, prior to the earthquake of February 2001, measures were not taken to correct the
damages noted in the Facilities Assessment report of November 30, 1999. DOC explained that
repairs were not initiated due to the age and physical make up of the facility (masonry walls), lack of
available funding, and that the damage was not considered sufficiently serious to interrupt
operations. Except for verbal representations, DOC did not provide us with documented evidence
showing that claimed disaster costs pertained only to damage caused by the disaster and not to pre-
disaster conditions.

FEMA and EMD officials agreed that project documentation indicated that the facility suffered from
pre-disaster conditions, but believed that documentation was lacking to determine the exact damage
caused by the disaster. These officials explained that, in determining damage eligibility, project
inspections were limited to physical observations and did not include a thorough review of the
maintenance history of this facility. They also noted that FEMA procedures for determining damage
eligibility do not provide direction for evaluating projects when lack of maintenance and repairs may
be a contributing factor to the gravity of the damage. FEMA officials noted their inspections
identified and reported isolated instances of pre-disaster damage.

FEMA needs to develop guidance and procedures for evaluating and making eligibility
determinations for disaster damage aggravated by the lack of pre-disaster maintenance or repairs.
As stated above, FEMA and EMD project records and other documents provided by DOC do not
provide conclusive evidence of damage caused by unmitigated pre-existing conditions and/or
damage that was directly related to the earthquake. Therefore, to ensure that public assistance funds
are provided only for eligible disaster damage, FEMA needs to develop guidance for identifying and
evaluating disaster damage associated with the lack of maintenance or repairs and for funding
disaster damage costs that reasonably would have been incurred if the facility had been adequately
maintained. FEMA's guidance should include procedures that identify disaster repair costs that
could have been mitigated if a subgrantee adequately maintained or repaired its facilities prior to a
disaster.

On March 2, 2005, we held a phone exit conference on Finding A with officials from FEMA's
Recovery Division. Those officials stated that training courses for disaster inspectors included
procedures for visually evaluating indications of pre-disaster damage. FEMA officials also stated
they would revisit training materials and, during such training, would continue to stress the need for
adequate evaluations of disaster damage. In this respect, we believe that training should also include
procedures for assessing and evaluating available documentation3 for a damaged facility, where a
physical inspection of the facility uncovers conditions normally not identified with adequately
maintained property.

On April 18,2005, we issued the draft audit report and requested that FEMA's Recovery Division
provide written comments on Finding A. We did not receive responses from the Recovery Division;
therefore, we asked the Acting FEMA Director to provide written comments to Finding A by
separate correspondence.

Finding; B - Ineligible Proiect Costs

DOC claimed $2,122 for project 1558 for costs that were not disaster related. The claimed amount
pertained to repairs to a fire hydrant that was damaged by construction workers performing disaster
work at the WSP. According to 44 CFR$ 206.223(a)(1), an item of work must be required as the
result of the major disaster event to be eligible for financial assistance. Since DOC'S claim was not
supported with documentation showing the costs were disaster related, we questioned $2,122. On
November 12,2004, we discussed this finding with FEMA Region X, EMD, and DOC officials.
Those officials concurred that the claimed costs were not disaster related. On May 10, 2005, we
received written response from FEMA Region X to our draft report wherein it concurred with the
report but offered no additional comments. In order to close this finding, FEMA Region X should
provide us with copies of the documents that disallowed the costs questioned in the finding.

                                           RECOMMENDATION

We recommend that the Regional Director, FEMA Region X, in coordination with EMD disallow
$2,122 in costs claimed by the DOC.

                DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of this audit with DOC, EMD, and FEMA Region X officials on November
12, 2004. For Finding A, those officials explained that project documentation indicated that the
facility suffered from pre-disaster conditions, but believed that documentation was lacking to

 Maintenance records, and documents detailing completed andlor planned facility repairs and upgrades.

                                                         4
determine the exact damage caused by the disaster. The attendees at our exit conference agreed with
Finding B and Recommendation 2 since the repair costs we questioned were the result of damage
caused by construction workers and not by the disaster. Our March 2, 2005, discussion with FEMA's
Recovery Division is summarized in Finding A.

As indicated above, we request that FEMA Region X advise this office by June 23,2006 of specific
actions taken to disallow the costs questioned in Finding B. Should you have any questions
concerning this review, please call me, at (510) 637-1461. Key contributors to this report were
Humberto Melara, Jack Lankford, Jeff Flynn, and James Kane.
                                                                                       Exhibit A


                                     Schedule of Projects Audited 

                           State of Washington Department of Corrections 

                       Public Assistance Identification Number 000-UTLYX-00 

                               FEMA Disaster Number 1361-DR-WA


             Project           Amount        DOC           Questioned       Finding
             Number            Obligated     Claim           Costs         Reference

              1558         $1,681,381       $1,798,760       $2,122             B
              1428             87,854           87,295            0
              Totals       $1.769.235       $1.886.055       $2.122




Finding Legend
B - Ineligible Project Costs
